         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       EPA Did Not Properly Account for All
       Property for Implementing Homeland
       Security Presidential Directive-12

       Report No. 09-P-0233

       September 15, 2009
Report Contributors:                                    Nancy Dao
                                                        Mike Davis
                                                        Heather Layne
                                                        Janet Kasper




Abbreviations

EPA          U.S. Environmental Protection Agency
FAS          Fixed Assets Subsystem
HSPD         Homeland Security Presidential Directive
IFMS         Integrated Financial Management System
OIG          Office of Inspector General
SMD          Security Management Division




Cover photos:   From left: EPA’s ID Proofing Station, Enrollment Station, and
                Issuance Station used to issue Smartcards. (EPA photos)
                                                                                                               09-P-0233
                        U.S. Environmental Protection Agency                                           September 15, 2009
                        Office of Inspector General


                        At a Glance
                                                                               Catalyst for Improving the Environment

Why We Did This Review             EPA Did Not Properly Account for All Property for
                                   Implementing Homeland Security Presidential Directive-12
We initiated this audit based
on a hotline complaint related      What We Found
to Homeland Security
Presidential Directive             EPA generally recorded HSPD-12 property accurately in EPA’s Fixed Assets
(HSPD)-12 and the fact that        Subsystem (FAS). However, we noted the following discrepancies:
the U.S. Environmental
Protection Agency (EPA) had            •   four pieces of property valued at $29,538 were missing and not recorded
nearly $1 million in such                  in FAS,
property. Our objective was            •   acquisition costs in FAS were incorrect for some equipment, and
to determine whether property          •   nonfinancial information for several pieces of property was not accurately
purchased to support                       recorded.
HSPD-12 was accounted for
in accordance with EPA             To meet an Office of Management and Budget deadline, EPA shipped property to
policies and procedures.           other EPA locations before the property was recorded in FAS. Effective personal
                                   property management requires integration of property and financial management
Background                         records. Incorrect information in FAS could have an adverse effect on the
                                   Agency’s financial statements.
HSPD-12, Policy for a
Common Identification              The contract for implementing HSPD-12 did not include clauses to address
Standard for Federal               property management responsibilities. Tasks under the contract statement of work
Employees and Contractors,         required the contractor to account for the property as if it were government-
established a mandatory,           furnished property, but because the property was used in government facilities,
government-wide standard for       EPA did not consider the property to be government-furnished property.
secure and reliable forms of       Consequently, the contract did not properly reflect the status of the property.
identification issued by the
Federal Government to its          As a result of the deficiencies noted, there is an increased risk of loss of
employees and contractors.         government property and inaccurate reporting.
HSPD-12 requirements
included identity proofing,
registration, card issuance, and    What We Recommend
card management.
                                   We recommend that EPA use established procedures to resolve accountability for
                                   the missing property, and review accuracy of HSPD-12 property information in
For further information,           FAS and update any discrepancies. We also recommend that EPA modify the
contact our Office of              HSPD-12 contract to reflect contractor requirements and accountability for using
Congressional, Public Affairs      government property in government facilities.
and Management at
(202) 566-2391.
                                   The Agency concurred with the report recommendations and provided corrective
To view the full report,           action plans. EPA established a December 2009 milestone for resolving missing
click on the following link:       HSPD-12 property and updating FAS with accurate records. The Agency also
www.epa.gov/oig/reports/2009/      modified the contract on July 22, 2009, to reflect contractor requirements and
20090915-09-P-0233.pdf             accountability for the HSPD-12 property.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                       September 15, 2009

MEMORANDUM

SUBJECT:       EPA Did Not Properly Account for All Property for Implementing
               Homeland Security Presidential Directive-12
               Report No. 09-P-0233


FROM:          Melissa M. Heist
               Assistant Inspector General for Audit

TO:            Craig Hooks, Assistant Administrator
               Office of Administration and Resources Management


This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
EPA managers in accordance with established resolution procedures will make final
determinations on matters in this report.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $123,103.

Action Required

In responding to the draft report, the Agency provided corrective action plans for addressing all
of the recommendations. Therefore, a response to the final report is not required. The Agency
should track corrective actions not implemented in the Management Audit Tracking System.
We have no objections to the further release of this report to the public. The report will be
available at http://www.ega.gov/oig.

If you or your staff have any questions regarding this report, please contact Janet Kasper at
(312) 886-3059 or kasper.janet@epa.gov, or Michael Davis at (513) 487-2363 or
davis.michaeld@epa.gov.
EPA Did Not Properly Account for All Property for                                                                              09-P-0233
Implementing Homeland Security Presidential Directive-12




                                      Table of Contents

 Purpose .........................................................................................................................    1

 Background ....................................................................................................................     1

 Scope and Methodology ...............................................................................................               2

 Results of Review ..........................................................................................................         2

            EPA Fixed Assets System Is Not Always Accurate..............................................                             3
            EPA Did Not Update HSPD-12 Implementation Contract ....................................                                  5

 Recommendations .........................................................................................................            6

 Agency Comments and OIG Evaluation ......................................................................                           7

 Status of Recommendations and Potential Monetary Benefits.................................                                          8



Appendices
   A        Agency Response to Draft Report ...................................................................                      9

   B        Distribution .........................................................................................................   12
                                                                                        09-P-0233


Purpose
We initiated this audit based on a hotline complaint related to Homeland Security Presidential
Directive (HSPD)-12, which alleged that property was shipped to regional offices and labs
without being recorded in EPA’s Fixed Assets Subsystem (FAS), and the fact that the U.S.
Environmental Protection Agency (EPA) had nearly $1 million in such property. Our objective
was to determine whether property purchased to support HSPD-12 was accounted for in
accordance with EPA policies and procedures.

Background
HSPD-12, Policy for a Common Identification Standard for Federal Employees and
Contractors, issued August 27, 2004, established a mandatory, government-wide standard for
secure and reliable forms of identification issued by the Federal Government to its employees
and contractors. HSPD-12 program requirements include identity proofing, registration, card
issuance, and card management. EPA’s Security Management Division (SMD) is responsible for
implementing HSPD-12. SMD is within the Office of Administration and Resources
Management’s Office of Administration, which is responsible for the acquisition of all Agency
facilities, property management, and property security.

EPA selected a contractor to serve as both the designer and implementer of EPA’s HSPD-12
program. This included but was not limited to providing technical and programmatic support;
project management services; and the configuration, installation, operation, and acquisition of
new and existing systems. Property purchased for implementation of the directive included:

   •   ID Proofing Station - Dell Laptop or Desktop, ViiSage Authenticator, Intellicheck Card
       Reader, and HP Flatbed Scanner.
   •   Enrollment Station - Dell Laptop or Desktop, SIIG Firewire Card, Belkin Hub, Identix
       Touch Print Scanner, and Canon Digital Camera.
   •   Issuance Station - Dell Laptop/Desktop, Fargo High Definition Printer 600, Precise
       Reader, numeric keypad, and Omni Key Card Reader.

The cover of this report contains pictures of the three stations.

EPA’s Personal Property Policy and Procedures Manual prescribes policy and procedural
guidance for personal property management by EPA employees and contractors. According to
the manual:

   •   Control of accountable personal property is to be established in EPA’s Integrated
       Financial Management System (IFMS) upon receipt of property and must be maintained
       until disposal.
   •   Accountable personal property is personal property with an acquisition cost of $5,000 or
       more, all leased personal property, and sensitive items. Sensitive items are those that
       have a high potential for theft, including laptop computers, digital cameras, and scanners.
   •   Property accountable officers and custodial officers are responsible for accounting for
       accountable personnel property, including sensitive items.


                                                  1
                                                                                         09-P-0233


   •   Determination of the cost used in recording personal property in the appropriate accounts
       is an essential element of personal property accounting.

FAS supports the accounting and managing of physical property items. FAS interfaces with
IFMS subsystems to support fiscal and risk management as well as standard reporting. FAS
maintains the original and subsequent value of assets as well as replacement values. According
to SMD’s custodial officer, SMD is responsible for recording information on equipment
supporting HSPD-12 in FAS. SMD reported the purchase of $977,918 in HSPD-12 property as
of October 6, 2008.

Scope and Methodology

We conducted this audit from September 2008 through June 2009 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objective.

We visited EPA Headquarters in Washington, DC, where we met with SMD management
responsible for the oversight and control of HSPD-12 property. We interviewed Office
of Administration and Resources Management staff, such as the property accountable
officer, contracting officer, contract property coordinator, and SMD’s custodial officer, to
determine the processes used to manage and account for HSPD-12 property.

We assessed the internal controls relevant to our objective. We gained an understanding of the
internal controls by reviewing EPA’s Personal Property Policy and Procedures Manual,
Contracts Management Manual, Acquisition Regulations, and Custodial Officer’s Guide. To
determine whether property purchased in support of HSPD-12 was accounted for in accordance
with EPA policies and procedures, we reviewed documentation, such as contracts, modifications,
and statements of work. We also reviewed property information recorded in the Agency’s FAS,
SMD’s and the contractor’s listing of property, and EPA orders and invoices for supplies.

Our scope was limited to evaluating EPA activities as they related to property acquired to
support implementation of HSPD-12; we did not evaluate Agency activities as they related to
accountability for any other property.

We are not aware of any prior report recommendations specifically related to this report’s audit
objective.

Results of Review

EPA generally recorded HSPD-12 property accurately in FAS. However, several items were not
recorded in FAS and could not be located, and cost information and other information was not
always properly recorded in FAS. Further, the EPA contract statement of work for implementing
HSPD-12 required the contractor to maintain an inventory of the property as if it were


                                                 2
                                                                                         09-P-0233


government furnished despite the Agency’s determination that it is not government-furnished
property. As a result of the deficiencies noted, there is an increased risk of loss of government
property and inaccurate reporting.

EPA Fixed Assets System Is Not Always Accurate

Four pieces of property, valued at $29,538, were missing and not recorded in FAS. Also, the
acquisition cost recorded for property in FAS was incorrect, and nonfinancial information for
several pieces of property was not accurately recorded. To meet an Office of Management and
Budget-mandated deadline, the Agency shipped property to other EPA locations before it was
recorded in FAS. Effective personal property management requires integration of property
records and financial management records; incorrect information in FAS could potentially have
an adverse affect on the Agency’s financial statements.

       Missing Property

       SMD discovered four pieces of equipment, valued at $29,538, missing when property
       was transitioned from the previous contractor to the current contractor. The four items in
       the records of the previous contractor but not transferred to the current contractor are
       listed in Table 1.

       Table 1: Missing Items
         Item                            Cost
         Camera                          $2,025
         Fargo Printer                    8,321
         ViiSage Authenticator            9,596
         ViiSage Authenticator            9,596
         Total                          $29,538
       Source: SMD


       The missing items were not recorded in FAS, or SMD’s or the contractor’s listing of
       HSPD-12 property. SMD’s director stated that an equipment inventory reconciliation
       was performed before transitioning property to the current contractor (the new contract
       was awarded on March 12, 2008). The four pieces of equipment were not located during
       the reconciliation. SMD has disapproved the final invoice submitted by the previous
       contractor pending resolution.

       The Agency should use the established policies and procedures for lost, damaged, or
       destroyed property that are in the Personal Property Policy and Procedures Manual to
       resolve accountability for the missing property. These procedures include notifying the
       security office and property accountable officer; preparing a Survey Report
       Memorandum describing the circumstances of the lost, damaged, or destroyed property;
       and submitting the memorandum to the property accountable officer. After review, the
       property accountable officer submits information to the property management officer,
       who determines whether to convene the Board of Survey. The Board of Survey serves as
       a fact-finding body charged with determining the circumstances and conditions when



                                                  3
                                                                                 09-P-0233


property is declared lost, damaged, or destroyed, and issues findings and
recommendations to the property management officer for action.

Inconsistent Cost Information in FAS

We found 31 instances in which property was incorrectly recorded in FAS (see Table 2)
and thus in IFMS. The recorded value for these 31 items totaled $200,419. Property cost
provided by SMD was not consistent with the cost recorded in FAS. For example, items
such as laptops and scanners were purchased by SMD as a “kit,” but these items were
listed as separate items with different costs in FAS. SMD is currently working on
determining the unit cost and updating any incorrect information in FAS.

Table 2: Cost Recorded for 31 Property Items
                                                       Total                      Total
 No. of                               SMD Listing      SMD        FAS Listing      FAS
 Items         Description              of Cost        Cost         of Cost        Cost
     3  Desktop - OptiPlex GX620      $10,080 (3)      $30,240      $575 (3)       $1,725
    25  Touchprint Fingerprint         $7,800 (16)    $124,800    $7,900 (16)    $126,400
        Capture                        $7,900 (6)      $47,400    $2,720 (1)       $2,720
                                                                  $3,725 (1)       $3,725
                                                                  $7,900 (4)      $31,600
                                      $10,080 (3)      $30,240    $7,900 (3)       $23,700

    3    Dell Latitude D520            $7,800 (2)      $15,600    $1,169 (1)        $1,169
                                                                  $2,500 (1)        $2,500

         Dell Latitude D520            $7,900 (1)        $7,900   $6,880 (1)        $6,880



Total (31)                                            $256,180                   $200,419
Source: OIG analysis of EPA data

The SMD deputy director stated that during implementation, SMD decoupled the laptop
and scanner, and the acquisition prices for the individual components were not available.
In addition, acquisition prices of individual components were recorded as the kit price,
while other times a reasonable approximation of what the individual component
acquisition price would be was recorded. The deputy director indicated “SMD will work
with the Property Management team to develop a consistent strategy of recording the
acquisition prices of individual components, where an error in recording the acquisition
prices has been detected; SMD will work with the Property Management team to update
FAS with the correct purchase information.”

According to EPA’s Personal Property Policy and Procedures Manual, determination of
the cost used in recording personal property is an essential element of personal property
accounting. The current value of accountable personal property is to be maintained in
IFMS and should be recorded on an item-level basis (i.e., each individual item is a
separate record).


                                         4
                                                                                            09-P-0233


       Inaccurate Property Information in FAS

       Our review of property information in EPA’s FAS found seven items with incorrect
       purchase order numbers, property locations, or acquisition dates (see Table 3). In Fiscal
       Year 2006, SMD began purchasing property for the issuance of smartcards. Upon receipt,
       SMD calibrated and shipped the property to various EPA locations.

        Table 3: Inaccurate Property Information
          Decal Number        Item            Incorrect information in FAS
         B11866               Scanner         Acquisition date
         B11878               Scanner         Acquisition date
         S10865               Laptop          Acquisition date, location of property
         SA7047               Scanner         Purchase order number, location of property
         B11654               ViiSage         Acquisition date, location of property
         S12071               Camera          Acquisition date
         B11872               ViiSage         Acquisition date
       Source: OIG analysis of EPA data

       Not all property was affixed with an EPA decal number and accounted for in FAS before
       shipping. In September 2008, an EPA contractor sent correspondence to 13 different
       EPA locations stating items shipped were not decaled before leaving and, therefore, were
       not entered into IFMS. The correspondence listed 34 property items, of which only 7 had
       EPA decal numbers at the time. The SMD director said SMD was aware of the property
       not being decaled and entered into FAS before it was shipped to other EPA locations, but
       flexibility was required to get the smartcards issued by the Office of Management and
       Budget-mandated deadline of September 30, 2008. SMD’s deputy director indicated
       SMD would work with the Property Management team to get FAS updated with the
       correct information.

       EPA’s Personal Property Policy and Procedures Manual requires that personal property
       records be maintained and entered into FAS in a timely manner. In addition, EPA
       Custodial Officer’s Guide requires that property received at a central receiving point
       (warehouse) be decaled and entered into FAS before delivery to the end user. It further
       states that for property delivered directly to the end user, as was done for some HSPD-12
       property, the end user/purchaser must notify the property accountable officer so that the
       property can be properly decaled and entered into FAS.

EPA Did Not Update HSPD-12 Implementation Contract

The contract for implementing HSPD-12 does not include the correct clauses to address property
management responsibilities. Tasks under the contract statement of work require the contractor
to account for the property as if it were government-furnished property. However, the property
is used in government facilities, and EPA officials do not consider government property used by
a contractor in government facilities to be government-furnished property. An exception was not
written in any EPA policy or guidance until February 2009. The contract did not properly reflect
the status of the property because the contracting officer did not provide the contract to the
contract property coordinator for review prior to issuance as required. We could not determine


                                                 5
                                                                                           09-P-0233


why the initial contracting officer involved in the awarding of the contract did not provide the
contract to the contract property coordinator because he has left the Agency.

Government-furnished property is defined as property directly acquired by the government and
furnished to the contractor for the performance of the contract. The current contract requires the
contractor to maintain an accurate, complete, and updated inventory of equipment, and the
contractor was meeting this requirement. The contract language was similar to what would have
been included in a contract if the property were government-furnished property used at a
non-EPA facility.

On February 27, 2009, the Office of Acquisition Management issued a Contract Property
Accountability FLASH Notice that stated, “EPA property located in an EPA facility should
remain under the care and control of EPA facilities personnel. Contractors entering an EPA
facility to perform services that involve the use of EPA property (whether solely or shared with
EPA employees) should not be contractually liable for the EPA property. Therefore, EPA
property located at an EPA facility should not be placed on EPA contracts nor be the
responsibility or liability of the contractor.”

EPA’s contract property coordinator plays an important role in contract property management
under EPA contracts. The coordinator provides technical expertise and assistance to contracting
and project officers relative to contract property management under EPA contracts. According
to the contract property coordinator, contracting officers are required to submit copies of all
contracts that include property to the contract property coordinator for review before issuance.
This was not done for the HSPD-12 implementation contract. The contract property coordinator
explained the contract requirements should be changed to clarify the contractor’s role as it relates
to the use of the property. The February 2009 FLASH Notice requested action by contracting
officers for contracts with government property when the property is located at an EPA facility.
Contracting officers were requested to modify contracts to remove all government property and
send copies of those modifications to the contract property coordinator to ensure accountability
of property identified on the modifications.

EPA should modify the contract to ensure property roles and responsibilities are clearly
delineated.

Recommendations
We recommend that the Director, Office of Administration, Office of Administration and
Resources Management:

   1. Require SMD to use established policies and procedures in the Personal Property Policy
      and Procedures Manual for lost, damaged, and destroyed property to resolve
      accountability for the missing property.

   2. Require SMD to review the accuracy of HSPD-12 property information in FAS and
      update any discrepancies such as decaled identification, location, purchase order
      numbers, and cost.


                                                 6
                                                                                         09-P-0233


We recommend that the Director, Office of Acquisition Management, Office of Administration
and Resources Management:

   3. Modify the HSPD-12 contract to reflect contractor requirements and accountability for
      using government property in government facilities.

Agency Comments and OIG Evaluation
In responding to the draft report, the Office of Administration and Resources Management’s
Office of Administration and Office of Acquisition Management concurred with the report
recommendations.

The Office of Administration, in responding to recommendation 1, instructed SMD to use
established policies and procedures in the Personal Property Policy and Procedures Manual for
lost, damaged, and destroyed property to resolve accountability for the missing HSPD-12
property. The Agency milestone listed for completing this corrective action was December
2009. The planned corrective action meets the recommendation intent.

The Office of Administration instructed SMD, in response to recommendation 2, to review the
accuracy of HSPD-12 property information in FAS and work with the Property Management
team to update any discrepancies related to such items as decaled information, location, purchase
order numbers, and cost. SMD has already worked with the Agency Property Management
Officer in the Facilities Management and Services Division to update certain purchase
information in FAS and plans to complete the updates by December 31, 2009. The planned
corrective action meets the recommendation intent.

The Office of Acquisition Management, in response to recommendation 3, issued modification
#11 to the HSPD-12 Contract GS-35F-4997G, Task Order 15, to reflect contractor requirements
and accountability for using government property in government facilities. The modification was
issued to the contractor on July 22, 2009, to establish accountability for the property, to clarify
that the task order does not include government property, and to identity the EPA Contract
Property Coordinator. We reviewed the modification and it addresses the recommendation.

The complete Agency response to the draft report is in Appendix A.




                                                 7
                                                                                                                                           09-P-0233



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

     1        6     Require SMD to use established policies and              O                 Director,            12/31/2009
                    procedures in the Personal Property Policy and                    Office of Administration,
                    Procedures Manual for lost, damaged, and                         Office of Administration and
                    destroyed property to resolve accountability for the              Resources Management
                    missing property.

     2        6     Require SMD to review the accuracy of HSPD-12            O                 Director,            12/31/2009
                    property information in FAS and update any                        Office of Administration,
                    discrepancies such as decaled identification,                    Office of Administration and
                    location, purchase order numbers, and cost.                       Resources Management

     3        7     Modify the HSPD-12 contract to reflect contractor        C                 Director,            07/22/2009
                    requirements and accountability for using                            Office of Acquisition
                    government property in government facilities.                           Management,
                                                                                     Office of Administration and
                                                                                      Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                 8
                                                                                       09-P-0233


                                                                                   Appendix A


                  Agency Response to Draft Report


MEMORANDUM

SUBJECT:      Response to Audit Report Draft

FROM:         Renee Page, Director
              Office of Administration

TO:           Janet Kasper, Director
              Contracts and Assistance Agreement Audits

     On behalf of the Acting Administrator for OARM, Craig Hooks, please find attached
OARM’s written response to the findings and recommendations as referenced in your
memorandum to Mr. Hooks dated June 19, 2009.

        Please note that the written response has been provided by and through the Director for
the Office of Administration for OARM and the Acting Director for the Office of Acquisition
Management for OARM as both are responsible for specific areas or elements within the scope
of audit.

      Should you have any questions or wish to discuss this response, please call me at (202)
564-8400 or my Acting Deputy, Dennis Bushta, at the same number.


Attachment




                                                9
                                                                                       09-P-0233




MEMORANDUM

SUBJECT:      Response to Audit Report Draft

FROM:         Tami Franklin, Director
              Security Management Division

THRU:         Renee Page, Director
              Office of Administration

              John Gherardini, Acting Director
              Office of Acquisition Management

TO:           Janet Kasper, Director
              Contracts and Assistance Agreement Audits
              Office of Inspector General

    Thank you for the opportunity to comment on the Office of Inspector General’s (OIG’s)
Draft Audit Report (“Report”) of June 19, 2009: EPA Did Not Properly Account for All Property
for Implementing Homeland Security Presidential Directive-12.

    The Security Management Division (SMD) concurs with the Report’s Recommendations 1
and Recommendation 2. In addition, the Office of Acquisition Management (OAM) concurs
with Recommendation 3, which involves contract modification. The planned or actual
completion dates for the recommendations, as well as corrective actions already initiated, are
below.

   1. Require SMD to use established policies and procedures in the Personal Property Policy
      and Procedures Manual for lost, damaged, and destroyed property to resolve
      accountability for the missing property.

       The Director of the Office of Administration has instructed SMD to use established
       policies and procedures in the Personal Property Policy and Procedures Manual for lost,
       damaged, and destroyed property to resolve accountability for the missing items detailed
       on page 3 of the Report, due by the date indicated. Planned Completion Date: December
       31, 2009.

   2. Require SMD to review the accuracy of HSPD-12 property information in FAS and
      update any discrepancies such as decaled identification, location, purchase order
      numbers, and cost.

       The Director of the Office of Administration has instructed SMD to review the accuracy
       of HSPD-12 property information in FAS and work with the Property Management team
       to update any discrepancies related to such items as decaled information, location,
       purchase order numbers, and cost, by the date indicated. SMD has already worked with



                                               10
                                                                                        09-P-0233


       Connie Posey, Team Leader, Agency Property Management Officer in the Facilities
       Management and Services Division, to update certain purchase information in FAS.
       Planned Completion Date: December 31, 2009.

   3. Modify the HSPD-12 contract to reflect contractor requirements and accountability for
      using government property in government facilities.

       To reflect contractor requirements and accountability for using government property in
       government facilities, OAM issued modification #11 to the HSPD-12 Contract GS-35F-
       4997G, Task Order 15. The modification was issued to the contractor to clarify that the
       task order does not include Government property, and to clarify the identity of the EPA
       Contract Property Coordinator (CPC). The recommended action was completed as of
       July 22, 2009.

    SMD’s comments on the Report are only to clarify the extent of the incorrect information in
the Fixed Assets Subsystem (FAS). At a Glance: What We Found says: “Acquisition costs in
FAS were incorrect…” (second bullet). SMD respectfully requests this be changed to: “Certain
[or Some] acquisition costs in FAS were incorrect…” so as not to imply that all such information
was incorrect.

    For the same reason, SMD requests that the section title EPA Fixed Assets System is Not
Accurate (page 3) be changed to: Certain [or Some] Information in EPA Fixed Assets System is
Not Accurate. Within that section, SMD asks that the second sentence in the first paragraph be
changed to: “Also, the acquisition cost recorded for certain [or some] property in FAS was
incorrect….”

    SMD believes that the section entitled Inconsistent Cost Information in FAS (p. 4) overstates
the extent of incorrect information. As SMD Acting Director Tami Franklin documented in her
May 7, 2009, comments on the Discussion Draft of this Report, 20 of the Dell Latitude laptops
were accurately recorded in FAS as costing $3,440, and one of the Touchprints was accurately
recorded as costing $4,460. SMD therefore requests that reference to these 21 items be removed
from Table 2 (page 4) and from the related discussion in this section.

    Thank you for considering these requests, which SMD believes to be consistent with portions
of the Report that do clarify the extent of the incorrect information. For example, At a Glance:
What We Found also says: “Non-financial information for several pieces of property was not
accurately recorded” (third bullet; emphasis added). Text under EPA Fixed Assets System is Not
Accurate (page 3) limits the scope of discussion to four pieces of property.


   Again, we appreciate this opportunity to review and comment on the Report. If you have
additional questions, please contact SMD Acting Director Tami Franklin at 202-564-9218.




                                               11
                                                                                   09-P-0233




                                                                               Appendix B

                                      Distribution

Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Acting Director, Office of Acquisition Management, Office of Administration and
    Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Acting Inspector General




                                             12
